No.19-_

INTHE

~upreme

<teourt of tbe Wniteb ~tates

TAKEDA PHARMACEUTICAL COMPANY LIMITED,
TAKEDA PHARMACEUTICALS USA, INC.
AND ELI LILLY AND COMPANY,

Petitioners,
v.
PAINTERS AND ALLIED TRADES DISTRICT
COUNCIL 82 HEALTH CARE FUND, et al.,

Respondents.

WORD COUNT CERTIFICATION

As required by Supreme Court Rule 33. l(h), I certify that the Petition For A
Writ Of Certiorari contains 8,945 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33. l(d).
I declare under the penalty of perjury that the foregoing is true and correct.

Executed on February 26, 2020.

Jo athan S. Franklin
RTON ROSE FULBRIGHT US LLP
799 9th Street, N.W., Suite 1000
Washington, D.C. 20001
(202) 662-0466
Counsel of Record for Petitioners

